RAILROAD RETIREMENT ACT DOCUMENT IMAGING PROCESS: RELIABILITY OF
             IMAGES FROM SCANNED PAPER DOCUMENTS
                 Audit Report No. 04-02, May 12, 2004

                                    INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review of the
reliability of electronic images created through the scanning of Railroad Retirement Act
(RRA) documents.

Background

The Railroad Retirement Board’s (RRB) mission is to administer retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families. During fiscal year (FY) 2003, the RRB paid approximately $8.9 billion in
railroad retirement and survivor benefits to about 666,000 beneficiaries. The RRB also
paid benefits of $94 million to 37,000 claimants under the Railroad Unemployment and
Sickness Insurance Act (RUIA).

The agency’s document imaging system produces electronic folders of documents used
to support the agency’s RRA and RUIA programs. Agency personnel scan paper
documents into the imaging system to create electronic documents. Other documents
enter the imaging system directly from other RRB computer systems. Document
imaging enhances efficiency and effectiveness of operations by increasing the
accessibility of the documentary evidence that is required to support benefit payments
and claims adjudication. The RRA portion of the system was initially developed in FY
1999 and is scheduled to be fully implemented in FY 2004.

The Office of Programs is responsible for the content and accuracy of the imaging
system. The Bureau of Information Services is responsible for maintenance of the
system including security, back-up and recovery. A group of officials from the Office of
Programs, Bureau of Information Services, Bureau of Law, and OIG have addressed
document retention issues to ensure the integrity of imaged records and the proper
retention of the paper input documents.

Although the RRA and RUIA processes are separate, they share similar procedures and
controls. The same agency personnel process documents for both agency programs
using the same equipment. The OIG has performed the following reviews evaluating
various aspects of the imaging system:

    •	 Assessed the viability of RRA imaging and the adequacy of the Cost Benefit
       Analysis (Audit Report No. 99-15, issued August 1999).
    •	 Evaluated the reliability of the RUIA document imaging (Audit Report No. 01-01,
       November 2000). This review noted several procedural and control deficiencies
       related to the reliability of the imaged documents, access to the imaging system,


                                            1

       backup and recovery of the imaging system, and retention of the system’s paper
       input documents.
    • Monitored the design and implementation of the RRA imaging to ensure that
       adequate controls were developed and that the RRB was following its system
       development life cycle policies (Audit Report No. 01-07, June 2001). We
       determined that most RUIA imaging deficiencies noted in our prior review apply
       to RRA imaging because the two processes use similar procedures and controls.
    •	 Re-examined the RUIA imaging reliability, as a follow-up review (Audit Report
       No. 02-09, August 2002). We reported that controls were now adequate to
       ensure that paper documents were scanned into the system and that the
       scanned images had been properly indexed to permit future retrieval. However,
       controls were insufficient to ensure that RUIA images were complete and legible,
       and that original paper input documents were properly retained and easily
       retrievable.

The RRB’s 2003-2008 strategic plan contains two goals: (1) provide excellent customer
service and (2) serve as responsible stewards for RRB customers’ trust funds and
agency resources. The efficiencies gained through document imaging should help the
RRB achieve both of these goals.

Objective, Scope and Methodology

The objectives of this review were to determine whether the:

      1. 	 original paper documents are retained in accordance with applicable laws and
           regulations; and

      2. 	 document imaging system contains complete, legible electronic reproductions
           of the scanned paper documents.

To accomplish these objectives, we reviewed a statistically valid random sample of 300
documents scanned into the RRA portion of the imaging system from October 2002
through June 2003. We also analyzed policies, procedures and internal controls
relevant to the discrepancies observed during our sample review.

For purposes of this review, we classified the various errors identified as either “high
risk” or “low risk.” High risk errors are critical errors affecting case adjudication,
management reporting, or the image retrieval (e.g. wrong social security number or
name). Low risk errors are any other discrepancies that did not constitute a critical
error. Only high risk errors were considered in assessing the need for corrective action.

The OIG plans to examine controls over documents sent from other RRB computer
systems to the imaging system in a future audit. A subsequent OIG review will evaluate
controls over the completeness of the imaging system.




                                            2

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objectives and scope of this review. Fieldwork was
conducted at the RRB headquarters in Chicago, Illinois from October 2003 through
March 2004.

                                RESULTS OF REVIEW

Our review of paper documents scanned into the RRA document imaging system
indicates that controls are adequate to ensure that the images have been properly
indexed to permit future retrieval. However, controls are not adequate to ensure that
original paper input documents are properly retained and that the images on the system
are complete and legible.

These control weaknesses are similar to the weaknesses brought to management’s
attention in the OIG’s reports on RUIA document imaging. Weaknesses persist
because the agency has not properly implemented quality control procedures designed
to address these areas. In addition, agency procedures have not been adequately
updated to reflect the change from paper files to imaged records.

The details of our findings and recommendations follow.


Document Retention

Agency personnel do not always file RRA paper input documents in the proper location.
In our sample of 300 documents, we were unable to locate two paper input documents.
We also found eight documents with proposed seven year retentions misfiled with
documents proposed for destruction after 120 days. In addition to the documents
specifically in our sample, we found several other long-term paper documents attached
to short-term retention batches. The misfiled documents were all clearly listed as seven
year documents in the agency’s procedures.

The RRB has submitted a Request for Records Disposition Authority to the National
Archives and Records Administration (NARA). The request proposes that certain
documents and any attached correspondence should be destroyed seven years after
the close of the fiscal year that the documents were entered into the system. All other
documents will be destroyed 120 days after they are entered into the imaging system.
Per Federal regulations, the RRB cannot destroy any RRA input documents until NARA
approves the Disposition Authority.

The Office of Programs has designed several quality control procedures for the
document imaging system. One procedure consists of a periodic random sampling of
input documents in which the reviewer checks the documents against a published
document retention list to determine if documents are attached to the proper batches.
Another procedure includes a monthly image to paper review to determine if the input
documents are attached to the proper batch and filed in the proper location. In addition,



                                            3

staff are to perform a weekly 10% random sample of scanned documents to determine
if batches are filed in the proper location based on scan date and retention period.

The agency is misfiling certain documents because the individuals sending documents
to be scanned have not been adequately trained on which documents require long-term
retention. The individuals sending documents appear to be systematically attaching
some long-term documents to short-term batches. For example, our sample included
seven “Employee Certifications,” a long-term document, that were incorrectly attached
to short-term batches. Moreover, we found several other “Employee Certifications” that
were not part of our sample in short-term batches.

The Office of Programs did not detect misfiling because their staff has not adequately
conducted the required quality assurance reviews. Management acknowledged that
they did not perform the periodic comparison of input documents to published retention
schedules or the monthly image to paper review during our sample period. They could
not provide the OIG with documentation for any quality assurance reviews performed
during our sample period. Thus, we cannot confirm that the reviews were performed
adequately. Once we questioned management about quality assurance, they advised
that the reviews had been reinstated as of February 26, 2004.

Management also informed the OIG that, prior to destruction, each batch of documents
will be examined to prevent the improper destruction of documents that should have
been retained. The agency has not performed this final review because the RRB
cannot destroy any RRA imaging documents until NARA approves the proposed
retention. However, the agency’s written procedures do not mention this review. In
addition, the agency has sent documents to the Federal Records Center, an off-site
storage facility, without performing a final review.

Federal regulation prohibits removal or destruction of any record in Federal custody
unless provided for in an approved disposition authority.1 Each agency head is required
to establish safeguards against the loss of records.2 The RRB will be in violation of
Federal regulations if it destroys documents prior to their designated retention period.
Forensic evidence will also be lost if these documents are improperly destroyed.

Recommendations

The OIG recommends that the Office of Programs

      1. 	 Provide additional training for all individuals who batch documents or who have
           the authority to send documents for scanning.

      2. 	 Perform and document the Office of Programs’ required quality assurance
           reviews related to retention of paper documents.


1
    36 CFR §1228.100
2
    44 U.S.C. §3105


                                              4

    3. 	 Review all RRA documents filed in short-term batches scanned prior to March
         2004 and move all identified long-term documents to the appropriate location.

    4. 	 Document a procedure for RRA documents scanned after February 2004 to
         review short-term documents prior to destruction or off-site storage.

Management’s Response

The Office of Programs concurs with all four recommendations. On March 15, 2004,
they provided training to individuals with responsibility for batching and sending
documents for scanning. They restarted the required quality assurance reviews on
February 26, 2004 and will provide the OIG with documentation by June 15, 2004.
They will complete a review of short-term batches scanned prior to March 2004 and will
re-file applicable documents to long-term by May 28, 2004 for the documents that are
still on site. All documents previously sent off-site will be designated as long-term
batches, which eliminates the need for the review. In addition, the Office of Programs
documented the recommended procedure for short-term documents scanned after
February 2004.

A complete copy of the Office of Programs’ response is included in Appendix I of this
report.


Quality Controls over Completeness and Legibility

The RRA electronic documents on the imaging system are not always complete or
legible. In our statistical sample of 298 records we found six documents that did not
contain all pages of the original paper-input documents.3 The missing pages contained
date stamps that were on the paper but not the imaged document. We also found two
imaged documents with illegible date stamps used by the agency for tracking timeliness
for customer service purposes.

Federal regulations require the preservation of complete records.4 Because the RRB
uses the imaging system as the record copy, the documents on the imaging system
must contain all the information on the input documents. A document may be comprised
of multiple pages, with information on both the front and back.

The missing and illegible date stamps had not been detected by the Office of Programs
because they had not performed their quality assurance reviews. Office of Programs
procedures require a weekly random review of scanned batches to ensure that all
scanned images are legible and complete. The procedures stress that the agency
should image both sides of all pages of paper documents, including all document pages

3
  The OIG selected 300 sample items but could not locate two of the paper input documents. The OIG
  chose not to replace these two items because the missing documents would not have skewed the
  sample results.
4
  36 CFR §1222.50


                                                 5

with date stamps. The procedures also require an Office of Programs supervisor to
perform a similar quality assurance review every month using random samples of
scanned documents. The Office of Programs did not perform these reviews during our
sample period.

Missing information can lead to faulty adjudicative decisions. It may be difficult to use
records from the imaging system as evidence in a court of law because of reliability and
completeness deficiencies. In addition, the agency cannot accurately assess timeliness
of processing if date stamps are not scanned.

Recommendation:

The OIG recommends that the Office of Programs

   5. 	 Perform and document the quality assurance reviews contained in Office of
        Programs procedures related to legibility and completeness.

Management’s Response

The Office of Programs agreed with the recommendation. They have re-started the
quality assurance reviews and will provide documentation by June 15, 2004. A
complete copy of the response is included in Appendix I.


Inadequate Guidance for Image Records

Agency procedures do not contain adequate guidance on what constitutes a complete
record on the imaging system. In our review of a random sample of 298 documents, the
OIG found six documents with several pages of supporting materials that were not part
of the imaged record. They were documents used for transferring jurisdiction of certain
survivor benefits to the Social Security Administration (SSA transfers). The materials
consisted of printouts of information from other RRB computer systems. The OIG
initially believed that the imaged records for these six documents were incomplete, but
RRB management disagreed and advised that they implemented a policy to exclude
screen prints from the imaged record. They instructed staff not to image this
information because it is available on the other RRB computer systems. The OIG
confirmed that, for the six documents, the information is available from other
computerized sources. The RRB’s Records Officer and the OIG agree that screen
prints with redundant information do not have to be included in the imaged record.

The OIG could not find adequate guidance on what items should be included in the
imaged record. RRB management provided us with several memoranda that were
issued to staff, but they contained conflicting guidance and are not part of the agency’s
official procedures. Management also directed us to the official procedures for
authorizing benefit awards. While these procedures provide some guidance on screen
prints, the procedures:



                                            6

      • make no reference to document imaging;
      •	 contain no statement that material required for benefit authorization needs to be
         part of the imaged records;
      • provide no instructions on how to include the material in the imaged records; and
      •	 contain no instructions on the proper handling and eventual disposal of the
         materials that are not part of the imaged record.

In addition, the agency’s official procedures for processing adjudicative actions without
the annuitant’s paper claim folder (folderless processing) have not been updated to
reflect the existence of the document imaging system. The procedures provide
guidance on what materials should be matched to the claim folder, but the guidance has
not been updated to reflect the proper disposition of these materials now that the
agency has stopped using claim folders for most activities.

Federal regulations require agencies to establish and implement procedures for
maintaining record and non-record material separately.5 The RRB has sent a proposed
retention schedule to NARA. The proposed schedule includes a description of the
records that will be maintained on the imaging system. These records include
“applications for benefits, evidence of entitlement; the RRB’s decisions and awards and
underlying computations; changes in benefit status, including suspension and
termination of benefits; and related correspondence, word processing records and E-
mails.”

The RRB maintains its official written procedures on its online Procedures, References,
and Information Source Material (PRISM) system. The agency has not adequately
updated the procedures on PRISM to include document imaging. The agency has
primarily relied on memoranda to inform staff about procedural changes related to
imaging.

The inadequate and outdated procedures increase the risk of the imaging system
containing incomplete records and violating Federal laws and regulations on document
retention. In particular, there is a risk that the folderless processing materials may
contain record documents that the agency should either have imaged or put in the
claims folder.

Recommendations:

The OIG recommends that the Office of Programs, in conjunction with the RRB’s
Records Officer,

      6. 	 Update official agency procedures on PRISM to include guidance on the
           documentation that is required for inclusion on the imaging system and the
           proper disposition for materials that are not needed for the imaged record.

5
    36 CFR §1222.50


                                               7

   7. 	 Review a sample of the materials used in the folderless processing of SSA
        transfers to evaluate compliance with retention regulations. The review should
        cover transfers processed from March 2001, the date the agency started imaging
        these documents, until implementation of the revised procedures.

Management’s Response

The Office of Programs agreed with both recommendations. They will complete
procedure and guidance, in conjunction with the RRB’s Records Officer, by December
31, 2004. They will also review a sample of documents used in folderless processing of
SSA transfers and will set a target date for this review after completing the procedures
and guidance.

The Bureau of Information Systems, which employs the RRB’s Records Officer, had no
comments on the recommendations. Complete copies of responses from the Office of
Programs and Bureau of Information Services are included in Appendix I and II,
respectively.




                                           8

